                     U.S. Department of Agriculture

                        Office of Inspector General
                                    Midwest Region




            Audit Report

Controls Over the Minnesota Department of
    Education’s Use of Federal Funds




                         Report No. 27010-0019-Ch
                                       JUNE 2005
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL
                                              Midwest Region
                                     111 North Canal Street - Suite 1130
                                          Chicago, IL 60606-7295




DATE:          June 22, 2005

REPLY TO
ATTN OF:       27010-0019-Ch

TO:            Ollice C. Holden
               Regional Administrator
               Food and Nutrition Service
               77 West Jackson, 20th Floor
               Chicago, IL 60603

ATTN:          Adele Greco
               Senior Financial Specialist
               Financial Management

FROM:          Edward R. Krivus                  /s/
               Regional Inspector General

SUBJECT:       Controls Over the Minnesota Department of Education’s
               Use of Federal Funds


This report presents the results of our audit of the controls over the Minnesota
Department of Education’s use of Federal funds. The Food and Nutrition Service’s
response to the official draft, dated June 15, 2005, is included in its entirety as exhibit B,
with excerpts and the Office of Inspector General’s position incorporated into the
Findings and Recommendations section of the report.

Based on the information contained in the response, we have reached management
decision on all recommendations and, therefore, no further correspondence with our
office is necessary. If you have any questions, please contact me or have a member of
your staff contact Dennis Boedigheimer, Assistant Regional Inspector General, at
312-353-1356.
Executive Summary
Controls Over the Minnesota Department of Education’s Use of Federal Funds
Audit Report No. 27010-0019-Ch

Results in Brief     We performed this audit at the request of the Food and Nutrition Service
                     (FNS) to assess the Minnesota Department of Education’s (State agency) use
                     of Federal funds provided for State Administrative Expenses (SAE). The FNS
                     request was based on the results of reviews conducted by the State’s Office of
                     Legislative Auditor and FNS’ regional financial management staff covering
                     fiscal years 1999 through 2004. The Legislative Auditor and FNS reviews
                     identified the mismanagement of grant funds, and substantial problems with
                     the State agency’s accounting, expenditure, and reporting of both Federal SAE
                     and program funds. FNS recommended changes to the State’s accounting
                     procedures and required adjusting entries that resulted in reimbursement of
                     misspent funds.

                     This report presents the results of our audit of the adequacy of the State
                     agency’s controls over the use of Federal SAE funds. Our objective was to
                     determine whether Federal SAE funds were used in accordance with
                     regulations, and the extent of any improper claims. Our audit disclosed that the
                     State agency is continuing to make corrections to its accounting system to
                     ensure the proper use and reporting of Federal SAE funds. However, the State
                     agency has not yet developed adequate procedures to ensure its professional
                     service contracts adhere to Federal guidelines.

                     We determined that the State agency used Federal SAE funds to finance a
                     State program initiative by contracting for computer enhancements unrelated
                     to FNS’ Child Nutrition Programs. We questioned 4 of the 12 contracts we
                     reviewed for fiscal years 2000 through 2003, because the State agency did not
                     correctly determine the allowability or properly allocate expenditures between
                     Federal and State programs. As a result, the State agency used over
                     $235,000 of $3 million in Federal SAE funds without a clear cost benefit to
                     FNS’ Child Nutrition Programs.

Recommendations
In Brief        We recommend that FNS issue a bill of collection to the State agency for
                $235,120 in unallowable and unallocable costs charged for professional
                service contracts. We also recommend that FNS require the State agency to
                ensure their contracting procedures comply with Federal guidelines in
                determining the allowability and funding source for required costs. We also
                recommend that FNS require the State agency to establish appropriate contract
                criteria that includes a proper determination and allocation between Federal
                and State cost objectives.



USDA/OIG-A/27010-0019-Ch                                                                      Page i
Agency Response   In its response to the official draft report, dated June 15, 2005, the FNS agreed
                  with all recommendations and has collected the $235,120 in unallowable and
                  unallocable costs. We have incorporated applicable portions of the FNS
                  response, along with our position, within the Findings and Recommendations
                  section of the report. The FNS response is included in its entirety as exhibit B
                  of this audit report.

OIG Position      Based on FNS’ response, we have reached management decisions for all
                  Recommendations. Requirements for final action are listed under OIG
                  Position for each recommendation within the Findings and Recommendations
                  section of the report.




USDA/OIG-A/27010-0019-Ch                                                                   Page ii
Abbreviations Used in This Report


CFR                 Code of Federal Regulations
FNS                 Food and Nutrition Service
FY                  Fiscal Year
NSLP                National School Lunch Program
OIG                 Office of Inspector General
OMB A-87            Office Management and Budget Circular A-87
SAE                 State Administrative Expense
SCHIP               State Child Health Insurance Program
USDA                United States Department of Agriculture




USDA/OIG-A/27010-0019-Ch                                         Page iii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1: State Agency’s Use of Federal SAE Funds.................................................................... 3

        Finding 1             Unallowable Costs Were Charged to Finance the State’s Child Health
                              Insurance Program................................................................................................... 3
                                   Recommendation 1 .......................................................................................... 4
                                   Recommendation 2 .......................................................................................... 5
        Finding 2             State Agency Did Not Allocate A Contracted Service Between Federal and
                              State Programs......................................................................................................... 5
                                   Recommendation 3 .......................................................................................... 7
                                   Recommendation 4 .......................................................................................... 7

Scope and Methodology.......................................................................................................................... 8

Exhibit A – Summary of Monetary Results ......................................................................................... 9
Exhibit B – FNS’ Response to the Draft Report ................................................................................ 10




USDA/OIG-A/27010-0019-Ch                                                                                                                    Page iv
Background and Objectives
Background                          The Child Nutrition Act of 1966 (Act) requires an annual allocation of
                                    Federal funds to each State for its administrative costs incurred in connection
                                    with the programs authorized under the Richard B. Russell National School
                                    Lunch Act [42 U.S.C. 1751 et seq.] or under this Act [42 U.S.C. 1771 et
                                    seq.].1 The Food and Nutrition Service (FNS) determines the allocation
                                    amounts and monitors a State’s draw of Federal funds to ensure it does not
                                    exceed its allocation. The Act also provides a State the option of using up to
                                    20 percent of its fiscal year (FY) allocation for obligation and expenditure to be
                                    used in the next fiscal year. However, any allocations that the State did not
                                    obligate or expend must be returned to FNS for reallocation to States that
                                    demonstrate a need for additional State Administrative Expense (SAE) funds.

                                    Federal Regulations2 stipulate that SAE funds shall be made available to
                                    State agencies and describe the proper use and reporting of those funds. A
                                    State’s allocated amount, based in part on its SAE Plan, is made available
                                    through a letter of credit. The use of Federal SAE funds requires compliance
                                    with the Uniform Administrative Requirements for Grants and Cooperative
                                    Agreements 7 CFR 3016 and the Office of Management and Budget Circular
                                    A-87, which describe the establishment of indirect cost rates and the
                                    allowability of certain direct costs.

                                    The Minnesota Department of Education is the current State agency that has
                                    direct responsibility for Federal SAE fund usage. In addition to annual
                                    Federal SAE allocations, FNS provided grant funds for specific projects.
                                    Special grants must be used only for expenses associated with the specific
                                    grant objective.

                                    During FYs 2000 through 2003, the State agency received Federal SAE funds
                                    in regular allocations, a reallocation in FY 2000, and also received special grant
                                    funds. The State agency received regular allocations and reallocations totaling
                                    over $10.9 million, with over $3 million (28 percent) expended for professional
                                    service contracts and amendments. In addition, the State agency received Team
                                    Nutrition and Provision 2 and 3 grants totaling $700,0003.




1
  The Child Nutrition Act authorizes SAE funding and includes the Special Milk Program (7 CFR part 215) and the School Breakfast Program (7 CFR part
220). The Richard B. Russell National School Lunch Act includes the National School Lunch Program (7 CFR part 210), the Child and Adult Care Food
Program (7 CFR part 226) and the Food Distribution Program (7 CFR part 250).
2
  7 CFR 235, State Administrative Expense Funds.
3
  The Team Nutrition grant covered two years with $100,000 provided in fiscal year 2000 and an additional $200,000 provided in fiscal year 2001. The
Provision 2 and 3 grants were a one-time award of $400,000 in fiscal year 2001.
USDA/OIG-A/27010-0019-Ch                                                                                                                  Page 1
                                        The State agency’s mismanagement of both the Team Nutrition and
                                        Provision 2 and 3 grants was the subject of a report issued by the State’s Office
                                        of the Legislative Auditor. The State’s Legislative Auditor reported that
                                        during fiscal year 2001 the State agency misspent grant funds by charging:
                                        payroll costs for employees who did not work on the grant, travel expenses
                                        unrelated to the grants, and unallowable professional contracted services. In
                                        total, the Legislative Auditor questioned $350,000 out of $600,0004 provided
                                        through two specialized grants. FNS collected the misspent grant funds and
                                        recommended changes to the State’s accounting procedures.

Objective                               The objective of the audit was to determine whether State Administrative
                                        Expense funds were used in accordance with regulations and the extent of
                                        any improper claims.




4
    The State’s Legislative Auditor only audited the 2001 grant awards totaling $600,000.
USDA/OIG-A/27010-0019-Ch                                                                                         Page 2
Findings and Recommendations
Section 1: State Agency’s Use of Federal SAE Funds

                                   The Minnesota Department of Education (State agency) charged a Federal
                                   award for a State program initiative, for which the costs and benefits had not
                                   been correctly identified or allocated to State programs. The State agency’s
                                   use of Federal State Administrative Expense (SAE) funds did not comply with
                                   Federal cost principles identified in the Office of Management and Budget’s
                                   (OMB) Circular A-87 and attachments. As a result, we questioned over
                                   $235,000 in Federal SAE funds charged to the Federal award but used for a
                                   State mandated project.




Finding 1                          Unallowable Costs Were Charged to Finance the State’s Child
                                   Health Insurance Program

                                   The State agency used Federal SAE funds for computer enhancements for the
                                   specific purpose of complying with the State’s Child Health Insurance
                                   Program (SCHIP).5 The State agency followed Minnesota State contracting
                                   procedures, however, these procedures do not address compliance with
                                   Federal requirements for SAE funds. As a result, the State used $160,120 in
                                   Federal SAE funds to pay three contracts during fiscal years 2001 through
                                   2003 that did not benefit FNS’ Child Nutrition Programs.

                                   Federal Regulations6 for the use of SAE funds requires the State agency to
                                   correctly identify the proper Federal funding source and ensure that all costs
                                   are allowable. However, we determined the State’s contracting procedures did
                                   not include either the determination whether costs charged were allowable or
                                   an identification of a proper funding source. For a cost to be allowable under
                                   a Federal award, the cost must be reasonable, necessary, and allocated to a
                                   cost objective based on the relative benefits received.

                                   During fiscal years 2001 through 2003, the State agency did not ensure that
                                   three professional service contracts, charged to Federal SAE funds, were
                                   allowable. The three contracts included computer enhancements to implement
                                   the SCHIP in order to identify and enroll children in the State’s health
                                   insurance program. Although the SCHIP used school lunch program
                                   eligibility data, the cost objective was not to benefit FNS’ Child Nutrition
                                   Programs. The State agency, without determining the allowability of costs,
                                   improperly charged $160,120 in contracting costs to Federal SAE funds.
5
 In Minnesota, their SCHIP was called the Express Lane Eligibility Initiative.
6
 7 CFR 235.6 (b) with reference to OMB Circular A-87 (Revised 5/10/04), specifically Attachment A (C)(1) and (3) – General Principles for Determining
Allowable Costs.
USDA/OIG-A/27010-0019-Ch                                                                                                                   Page 3
                   The State agency also did not identify a proper funding source for the State’s
                   health insurance initiative. Joint guidance published prior to the initiative by
                   the U.S. Departments of Agriculture (USDA), Education, and Health and
                   Human Services recommended that States seek funding for the health
                   insurance initiative from several different sources, none of which mentioned
                   USDA as a Federal fund source. The State agency chose to use Federal SAE
                   funds based on potential future benefits of expanding direct certifications and
                   verifying eligibility for the National School Lunch Program (NSLP).
                   However, for this benefit to become a reality, the State would first need
                   Federal approval to directly certify against Minnesota’s Department of Human
                   Services’ data. Although it has been more than 3 years, the State has neither
                   received Federal approval nor made additional direct certifications.

                   State agency officials explained that a former State official handled the
                   contracting and funding for the SCHIP and reportedly relied on the potential
                   future benefits to the NSLP as the rationale for using Federal SAE funds for
                   SCHIP expenditures. Current State agency officials did speculate about
                   whether the expense was explicitly approved by FNS. However, an FNS
                   regional official stated they did not approve the use of Federal SAE funds for
                   the State’s SCHIP expenditures.

                   Since the State agency’s contracting procedures did not require a
                   determination of whether certain costs were allowable under a Federal award,
                   they improperly identified the State’s SCHIP initiative as necessary in the
                   administration of FNS’ Child Nutrition Programs. We determined that
                   additional procedures are needed to ensure the allowability of expenditures
                   and the identification of a proper funding source in accordance with Federal
                   regulations. Since the State agency could not show any direct benefit to FNS’
                   Child Nutrition Programs, we questioned the amounts paid for all three
                   contracts totaling $160,120 in Federal SAE funds.

Recommendation 1

                   Issue a bill of collection to the State agency for $160,120 in unallowable costs
                   charged for professional service contracts used to finance a State initiative that
                   was unrelated to FNS’ Child Nutrition Programs.

                   Agency Response.

                   In its response dated June 15, 2005, FNS agreed with our recommendation and
                   sent a bill of collection to the State agency on May 13, 2005, for
                   $160,120. On May 26, 2005, the State agency mailed a check for this amount
                   to the FNS lockbox, which was received on June 6, 2005.



USDA/OIG-A/27010-0019-Ch                                                                      Page 4
                   OIG Position.

                   We accept FNS’ management decision. Follow internal agency procedures in
                   forwarding Final Action correspondence to the OCFO.

Recommendation 2

                   Require the State agency to ensure its contracting procedures include the
                   establishment of appropriate cost objectives for each professional service or
                   consulting contract so that allowability as a Federal expenditure can be
                   properly determined.

                   Agency Response.

                   In its response dated June 15, 2005, FNS agreed with our recommendation and
                   the State agency will be developing additional written contracting procedures.
                   These procedures, with an estimated completion date of September 15, 2005,
                   will require that future contracts establish cost objectives for each professional
                   service or consulting contract in enough detail so that the appropriateness of
                   expenditures using Federal funds can be properly determined.

                   OIG Position.

                   We accept FNS’ management decision. For Final Action, FNS needs to notify
                   the OCFO that it reviewed and agreed with the State agency’s additional
                   contracting procedures.




Finding 2          State Agency Did Not Allocate A Contracted Service Between
                   Federal and State Programs

                   The State agency entered into a professional service contract that affected both
                   Federal and State programs, but paid the entire contracted amount from
                   Federal SAE funds. Due to the lack of established criteria for professional
                   service contracts, there was not enough detail in the description of work for a
                   determination to be made as to which Federal or State programs benefited
                   from this expenditure. The State agency was reimbursed $75,000 in Federal
                   SAE funds for a contract that does not distinguish between Federal and State
                   program expenses.




USDA/OIG-A/27010-0019-Ch                                                                     Page 5
                                     According to Federal requirements, certain costs, such as professional services
                                     or consulting contract costs, are only allowable subject to the adequacy of the
                                     contractual agreement for the service. The agreement must include enough
                                     detail, such as a description of the service and an estimate of time required, in
                                     order to determine whether the costs were properly allocated and therefore
                                     allowable.7 However, we determined that the State entered into one contract
                                     that did not contain enough detail to determine the proper allocation of costs.

                                     In fiscal year 2001, the State agency entered into a contract for $400,000 that
                                     included $325,000 for computer maintenance and support, and $75,000 for
                                     other unspecified enhancements. Although computer maintenance and support
                                     is an allowable expense, the contract language contained other enhancements
                                     that were not defined or allocated between Federal and State programs. Based
                                     on the contracting language, and lack of other supporting documentation, State
                                     agency officials have been unable to identify the specific program benefits
                                     received from the unspecified enhancements. Therefore, we question
                                     $75,000 of unspecified enhancements because we cannot determine what part,
                                     if any, was for allowable Federal expenditures.

                                     We questioned State agency personnel on several different occasions, in an
                                     attempt to obtain support for the $75,000 in computer enhancements.
                                     Although State agency personnel provided a list of potential computer
                                     enhancements, there was nothing to tie that list to the contract amount. A
                                     State agency official explained that there was a large turnover of staff,
                                     particularly in management, and it was difficult to try to assemble exactly
                                     what happened for that particular contract.

                                     Since the original contract did not support a proper allocation of cost between
                                     Federal and State benefits, the State agency needs to ensure all future contracts
                                     meet Federal requirements before claiming them as Federal SAE fund
                                     expenses. State agency officials informed us that they now require greater
                                     scrutiny in their review of contracted services, and we reviewed a current
                                     contract evidencing allocation between Federal and State funding sources
                                     based on the cost objectives. However, without established written criteria for
                                     the allocation of contracted costs, there is reduced assurance that State and
                                     Federal programs will be consistently charged based on the relative benefits
                                     received.




7
    7 CFR 235.6 (b) with reference to OMB Circular A-87 (Revised 5/10/04), specifically Attachment B, 32 (b)(8) – Selected Items of Cost
USDA/OIG-A/27010-0019-Ch                                                                                                                   Page 6
Recommendation 3

                   Issue a bill of collection to the State agency for $75,000 in contract costs that
                   were not allocated between Federal and State programs.

                   Agency Response.

                   In its response dated June 15, 2005, FNS agreed with our recommendation and
                   sent a bill of collection to the State agency on May 13, 2005, for $75,000. On
                   May 26, 2005, the State agency mailed a check for this amount to the FNS
                   lockbox, which was received on June 6, 2005.

                   OIG Position.

                   We accept FNS’ management decision. Follow internal agency procedures in
                   forwarding Final Action correspondence to the OCFO.

Recommendation 4

                   Require the State agency to establish written contract criteria in accordance
                   with Federal requirements that includes a definition of terms, a description of
                   the service, an estimate of the time required and an allocation of expenditures
                   between Federal and State programs.

                   Agency Response.

                   In its response dated June 15, 2005, FNS agreed with our recommendation and
                   the State agency will develop additional written contracting procedures, with
                   an estimated completion date of September 15, 2005. The procedures will
                   require that terms used in the contract are defined; services being contracted
                   for are described in detail; and significant work product milestones with
                   timeframes as well as the date of full completion of the contracted product are
                   clearly stated. If an allocation of costs between Federal and State programs
                   are applicable, then the procedures will require a description of how the
                   allocation will be fairly made.

                   OIG Position.

                   We accept FNS’ management decision. For Final Action, FNS needs to notify
                   the OCFO that it reviewed and agreed with the State agency’s additional
                   contracting procedures.




USDA/OIG-A/27010-0019-Ch                                                                     Page 7
Scope and Methodology
                  We performed our fieldwork from November 2004 through March 2005 at the
                  FNS Regional office in Chicago, Illinois and the State agency’s office in
                  Roseville, Minnesota. This audit was a special request by FNS based on
                  concerns raised by their own reviews. In addition, an audit report from the
                  Minnesota Office of the Legislative Auditor uncovered mismanagement of
                  funds in two FNS grants for fiscal years 2001 and 2002. The FNS financial
                  management review, performed in May 2004, identified substantial problems
                  in the State agency’s accounting, expenditure, and reporting of both Federal
                  SAE and program funds for fiscal years 1999 through 2004.

                  Our review included fiscal years 2000 through 2002, from which we selected
                  the third quarter of fiscal year 2001 due to the highest amount of SAE outlays
                  being recorded in this period. We judgmentally selected 24 of the 468 total
                  transactions valued at $523,511 of the total $905,256 for the third quarter.
                  Our sample accounted for 58 percent of the overall universe value for this
                  quarter and included direct salary, contract for professional service, and
                  indirect cost expenditures. Based on results of our testing, we expanded our
                  sample selection to include 12 of the total 46 professional service contracts
                  and amendments the State entered into during fiscal years 2000 through 2003.
                  The value of the 12 contracts we reviewed represented $2.5 million of the
                  $3 million paid for professional service contracts and amendments.

                  To accomplish our audit objectives we:

                     •     Reviewed regulations, policies, and procedures governing Federal SAE
                           funds;

                     •     Interviewed FNS Regional Office and State agency officials to
                           determine what controls are in place to monitor Federal SAE funds;

                     •     Reviewed the results of State audits to identify issues that concern the
                           State agency’s use and recording of Federal SAE funds;

                     •     Reviewed the indirect cost rate and how its used; and,

                     •     Reviewed the State agency’s procedures for budgeting, documenting,
                           and claiming SAE by testing the validity of the claims made on the
                           Federal Financial Status Report.

                  This audit was conducted in accordance with Generally Accepted Government
                  Auditing Standards.

USDA/OIG-A/27010-0019-Ch                                                                    Page 8
Exhibit A – Summary of Monetary Results
                                                            Exhibit A – Page 1 of 1


     FINDING
                     DESCRIPTION           AMOUNT         CATEGORY
     NUMBER
                Federal SAE Funds Used               Questioned Costs:
         1      To Finance State Program   $ 160,120 Recovery
                Initiative                           Recommended

                Contract Costs Not
                                                     Questioned Costs:
                Properly Allocated Among
         2                                  $ 75,000 Recovery
                Federal and State
                                                     Recommended
                Programs
                                           $ 235,120




USDA/OIG-A/27010-0019-Ch                                                   Page 9
Exhibit B – FNS’ Response to the Draft Report
                                                Exhibit B - Page 1 of 2




USDA/OIG-A/27010-0019-Ch                                     Page 10
Exhibit B – FNS’ Response to the Draft Report
                                                Exhibit B - Page 2 of 2




USDA/OIG-A/27010-0019-Ch                                     Page 11
Informational copies of this report have been distributed to:

Agency Liaison Officer (3)
General Accountability Office (1)
Office of Management and Budget (1)
Office of the Chief Financial Officer
 Director, Planning and Accountability Division (1)
OIG Headquarters
 Director, AFD (2)
 OIG File Copy (1)
